 

IN THE

SUPREME COURT OF THE UNITED STATES

 

ROBERTO TORNER - PETITIONER

VS.

UNITED STATES OF AMERICA - RESPONDENT

 

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. The petitioner has
not previously been granted leave to proceed in forma pauperis in any other court.
The United States District Court for the Middle District of Pennsylvania and
the Third Circuit Court of Appeals have appointed the undersigned as counsel for

the petitioner under the Criminal Justice Act of 1964, 18 U.S.C. §3006A.
©
Date 525 -2/ / ee
Gino Bartolai, Esquire
Attorney Id: PA 56642
Counsel of Record for Roberto Torner
238 William Street
Pittston, Pennsylvania 18640
email: Bartolai@ptd.net
(570) 654-3572
